            PUBLIC
           RELEASE


         NATIONAL OCEANIC AND
   ATMOSPHERIC ADMINISTRATION

         Interagency Agreements with the
Environmental Protection Agency-FY 1995
                            and FY 1996

     Audit Report No. STL-10140-8-0001 / February 1998




                 Office of Audits, Seattle Regional Office
U.S. Department of Commerce                                                           February 1998
Office of Inspector General                                             Report No. STL-10140-8-0001


Four copies of this report have been sent to the NOAA Audit Liaison. Please inform the Office of
Inspector General of the names of the key officials responsible for resolution of this audit. We
suggest that NOAA request a meeting with the Office of Inspector General within 30 days of this final
report issuance to discuss resolution of the report’s findings and recommendations. To arrange such
a meeting, please contact our office.

In accordance with DAO 213-5, you have a maximum of 60 days to submit, for our concurrence, an
Audit Action Plan for implementation of each of the report’s recommendations. Exhibit 7 of the
DAO should be used to format the Audit Action Plan. The Audit Action Plan should include specific
details and dates as to how and when each recommendation will be implemented. The Audit Action
Plan must also include the rationale and/or legal basis for not implementing any of the report’s
recommendations. Should you have any questions regarding the preparation of the Audit Action
Plan, please contact my office.


Introduction

NOAA receives annual allocation transfers of about $2 million from EPA’s Hazardous Substance
Response Trust Fund, commonly known as the “Superfund,” to provide technical assistance and
research on the risk to coastal resources and ecosystems from hazardous waste sites and spills. The
annual IAG was supplemented with a continuing reimbursable IAG for the period October 1, 1992, to
September 30, 1997. While NOAA reports on the IAGs separately, in practice, NOAA makes no
distinction between the IAGs for program funding purposes.

Purpose and Scope of Audit

The financial and compliance audit was performed in response to a request from NOAA, and was
limited to Trust Fund transaction testing and evaluation of compliance with the IAGs and EPA policy.
The objectives of the audit were to determine whether:

  o    costs claimed under the IAGs were properly recorded by NOAA and accurately reported to
       EPA; and

  o    NOAA’s administrative and financial controls complied with the terms and conditions of the
       IAGs and EPA policy.




                                                 2
U.S. Department of Commerce                                                            February 1998
Office of Inspector General                                              Report No. STL-10140-8-0001


The audit was conducted at NOAA offices in Seattle (Program Office); Germantown, Maryland
(Finance Office); and Silver Spring, Maryland (Budget Office) during July and August 1997.

Criteria for our audit were the applicable statutes, the operative IAGs for FYs 1995 and 1996, and
EPA’s policy guidance published as Superfund Financial Management And Recordkeeping -
Guidance For Federal Agencies, 1989 (EPA/220/M-89/001). The audited IAGs were:

            Type                 Period        IAG Number            Amount

       Allocation Transfer    FY 1995     DW13937022-01-0          $2,205,200
       Allocation Transfer    FY 1996     DW13937468-01-1          $2,000,000
       Reimbursement          FYs 1995-96 DW13936229-01-2          $3,795,000

We evaluated internal controls related to our tests of NOAA transactions. We did not identify any
control weaknesses related to our testing. However, internal control deficiencies were cited as
primary findings in prior OIG audits of the Superfund activity, and the independent auditors engaged
to audit NOAA’s 1996 financial statements disclaimed an opinion on those statements due to the
inadequacy of NOAA’s accounting records and internal controls (see OIG Audit Report No. FSC-
8841-7-0001, March 1997, which included the independent auditors’ reports dated January 10,
1997). Therefore, we do not represent that NOAA’s internal controls are effective beyond the limited
scope of our review.

We evaluated NOAA’s compliance with EPA policy, the IAGs, and basic Superfund statutes,
specifically, the Comprehensive Environmental Response, Compensation, and Liability Act of 1980
(CERCLA; P.L. 96-510; codified at 42 § 9601), and the Superfund Amendments and Reauthorization
Act of 1986 (SARA; P.L. 99-499; op cit). As detailed below, our evaluation found that NOAA is not
in compliance with EPA’s limitations on allowable indirect costs claimed.

We used computer reports processed by NOAA’s Financial Management System (FIMA) and by the
National Finance Center during our review. We did not perform a review of either data processing
system, but neither reporting system was relied upon for our conclusions and recommendations stated
below.

This review was conducted in accordance with generally accepted government auditing standards and
was performed under the authority of the Inspector General Act of 1978, as amended, and
Department Organization Order 10-13, dated May 22, 1980, as amended.




                                                  3
U.S. Department of Commerce                                                              February 1998
Office of Inspector General                                                Report No. STL-10140-8-0001


General Indirect Costs Claimed

NOAA has been claiming general and administrative indirect costs as part of the billings submitted to
EPA for both the allocation transfer and reimbursable IAGs. EPA policy is explicit in the 1989
Guidance For Federal Agencies that it will not accept general or agency-wide indirect cost
allocations as part of allowable IAG cost (see pages 15, 22, and 29 of the guidance and Appendix IV
of this report). Moreover, that policy is reiterated in Special Provision 5 to the allocation transfer
IAGs, and is also supported by all three IAG budgets, which provide no allowance for indirect costs.
EPA will accept general indirect costs if specifically authorized by Congress, or indirect costs related
to Superfund expenditures if an acceptable indirect cost allocation plan is developed by the agency.
However, neither of these conditions apply to the indirect costs charged by NOAA.

NOAA’s accounting system automatically factors various agency-wide overhead rates onto financial
obligations as they are recorded in its FIMA accounting system. The overhead rates differ between
NOAA offices because of such factors as varying rates of servicing Financial Management Centers,
but all rates are applied to a base of direct labor and the resulting percentages are automatically
factored into obligations charged against specific line items. Since the overhead amounts are
redistributed over selected direct cost line items and reported as direct costs in NOAA’s financial
reports to EPA, EPA is unaware that the “direct” costs billed by NOAA include the general overhead
factors. The overhead amounts are recorded in the 9000 object class series, which showed general
overhead applications of about $229,000 and $293,000 per year to the allocation transfer IAG
accounts for FYs 1995 and 1996, respectively.

Like the allocation transfer IAGs, the reimbursable IAG did not include a budget amount for indirect
cost. However, the reimbursable IAG did not include a Special Provision related to indirect costs as
did the allocation transfer IAGs. Regardless, EPA Superfund guidance applies to both the
reimbursable and allocation transfer IAGs. The allocation transfer IAGs are one-year IAGs with new
IAGs entered into each year. The reimbursable IAG has a cumulative, five-year performance period.
We identified $233,360 of indirect costs charged to the reimbursable IAG applicable to the FYs 1995
and 1996 audit period ($131,820 and $101,540). The indirect cost issue will apply to all five years of
the reimbursable IAG when it is closed out after
September 30, 1997.

NOAA’s position is to recover all operating costs associated with the IAGs. However, NOAA’s
practice of charging an agency-wide overhead rate conflicts with the terms and conditions of the
IAGs and EPA policy guidance. We contacted several EPA senior managers in our attempts to




                                                   4
U.S. Department of Commerce                                                             February 1998
Office of Inspector General                                               Report No. STL-10140-8-0001


clarify the EPA policy. None of the managers had personal knowledge of the policy or its genesis.
Some of the same managers were perplexed because they were familiar with other, non-Superfund,
IAGs and contracts on which EPA routinely accepted indirect costs as billed.

There are two possible sources for the indirect cost limitations. An EPA Comptroller Policy
Announcement No. 87-10 placed restrictions on indirect costs claimed under all IAGs, and was cited
in the 1989 Superfund policy guidance. In addition, a CERCLA provision prohibits payment out of
the Fund for any administrative costs unless such costs are reasonably necessary for and incidental to
implementation of the Trust Fund (see Uses of Fund In General; at
42 § 9611(a)). We were unable to determine whether either of these provisions was considered in
formulating the EPA policy and the EPA/NOAA IAG. Therefore, an official EPA position must still
be ascertained.

We recommend that NOAA clarify the indirect cost issue with EPA prior to execution of the next
IAG. If EPA is unable to provide a waiver of the indirect cost policy, or the IAGs cannot be
amended, NOAA will need to decide whether it would be cost effective to develop a separate indirect
cost allocation plan for Superfund-specific expenditures or forego recovery of the indirect costs.

Changes In Audit Guidelines are Needed

EPA does not require blanket audits of all Superfund transactions. EPA policy contained in the EPA
Guidance For Federal Agencies issued in 1989 (page 28) required annual audits of agencies with
specific designated authorities under Superfund (e.g., EPA, HHS, FEMA), but then stipulated that
other agencies operating under IAGs and without designated responsibilities may receive annual
audits of Trust Fund transactions. The Department of Commerce and NOAA were specifically
identified by EPA under the latter discretionary authority.

Previously, EPA provided funds to selected agencies with designated authorities (e.g., HHS) to
perform annual audits of Superfund transactions under SARA requirements. The Department of
Commerce was not one of these agencies. However, as the audit requirements of the CFO Act
became operative, EPA determined that Superfund audit requirements could be met under the scope
of the annual financial statement audits required under the Act. EPA, therefore, discontinued the
IAGs to selected agencies to fund Superfund audits, and now relies on the agencies’ own financial
statement audits to satisfy the SARA requirements.




                                                   5
U.S. Department of Commerce                                                             February 1998
Office of Inspector General                                               Report No. STL-10140-8-0001


The EPA policy is reasonable. The audit requirements of the CFO Act and SARA overlap and would
result in duplicative efforts if performed separately. In addition, the EPA Superfund was authorized
at a funding level of nearly $2 billion per year between FYs 1987 and 1994, and NOAA’s
expenditures of less than $3 million per year in support of some Superfund site work is not material
for program or audit purposes. We therefore recommend that routine transaction testing of
Superfund disbursements be included in the scope of NOAA’s annual financial statement audits.

No Discrepancies Found In
Superfund Transactions

Trust Fund transaction testing was limited to personnel, contract, and indirect costs recorded, since
those categories represented over 90 percent of costs billed to EPA under the allocation transfer
IAGs. Our tests of records in Seattle and Germantown disclosed no discrepancies in the data
reviewed, with minor exceptions.

Recommendations

We recommend that the NOAA Chief Financial Officer:

 o     Clarify EPA’s current policy regarding claimed indirect costs under the Superfund
       IAGs, and modify either the IAGs or the billing practices to be in full accordance with
       continuing agreements between NOAA and EPA; and

 o     Request that future audits of NOAA’s financial statements be modified to include
       sufficient testing of the NOAA/EPA Superfund IAG transactions to satisfy the SARA
       audit requirements.


Attachments




                                                   6
                                                                                       Attachment I
                                                                                        Page 1 of 1

                               EPA/NOAA Interagency Agreement
                         Allocation Transfer IAG No. DW13937022-01-0
                         Schedule of Obligations Reported and Accepted
                             Fiscal Year Ending September 30, 1995



Budget Categories/                    Approved       Reported       Accepted
Report Categories                     Budget         To EPA         Per Audit
                                                                     (Note 1)
Personnel                             $ 1,290,000
   Personnel compensation                           $ 730,000 $ 626,000
Fringe Benefits                                 -0-
   Personnel benefits                                  150,000     139,000
Travel                                    180,000
   Travel and transportation of persons                 98,000      91,000
   Transportation of things                             39,000      34,000
Equipment                                   25,000      10,000      10,000
Supplies                                    20,000      15,000      15,000
Procurement/Assistance                    675,000
   Other services                                    1,097,000   1,000,000
Other                                       15,200
   Rent, communications, and utilities                  64,000      59,000
   Printing and reproduction                             2,000       2,000
Total Direct Charges                   $ 2,205,200 $ 2,205,000 $ 1,976,000
Indirect Costs: Rate 0.00% Base $               -0-                        Note 2
   Indirect costs allocated among select
     direct cost categories and reported
     to EPA as direct charges                                      229,000 Note 2
Total                                 $ 2,205,200 $ 2,205,000 $ 2,205,000


Note 1 Amounts were reported to EPA on SF 225, Report on Obligations.

Note 2 The approved IAG award budget did not include an amount for indirect cost. However,
       NOAA allocated $229,000 in agency-wide indirect costs to obligation totals reported for
       select direct charge categories on the SF225 (shown in center column) and in the obligation
       totals included on the SF133, Report on Budget Execution. Both reports were submitted to
       EPA. EPA Superfund guidance and allocation transfer IAG award provisions prohibit
       charging agency-wide indirect cost against the Superfund IAG (see page 4 of the audit report
       for further information).
                                                                                      Attachment II
                                                                                        Page 1 of 1

                               EPA/NOAA Interagency Agreement
                         Allocation Transfer IAG No. DW13937468-01-1
                         Schedule of Obligations Reported and Accepted
                             Fiscal Year Ending September 30, 1996



Budget Categories/                    Approved       Reported       Accepted
Report Categories                      Budget        To EPA         Per Audit
                                                                     (Note 1)
Personnel                             $ 1,200,000
   Personnel compensation                            $ 759,000 $ 647,000
Fringe Benefits                                 -0-
   Personnel benefits                                  178,000     152,000
Travel                                      65,000
   Travel and transportation of persons                 48,000      41,000
   Transportation of things                              8,000       7,000
Equipment                                    5,000      23,000      20,000
Supplies                                    10,000      15,000      13,000
Procurement/Assistance                    700,000
   Other services                                      888,000     758,000
Other                                       20,000
   Rent, communications, and utilities                  80,000      68,000
   Interest and dividends                                1,000       1,000
Total Direct Charges                     2,000,000 $ 2,000,000 $ 1,707,000
Indirect Costs: Rate 0.00% Base $                -0-                       Note 2
   Indirect costs allocated among select
     direct cost categories and reported
     to EPA as direct charges                                      293,000 Note 2
Total                                  $ 2,000,000 $ 2,000,000 $ 2,000,000


Note 1 Amounts were reported to EPA on SF 225, Report on Obligations.

Note 2 The approved IAG award budget did not include an amount for indirect cost. However,
       NOAA allocated $293,000 in agency-wide indirect costs to obligation totals reported for
       select direct charge categories on the SF225 (shown in center column) and in the obligation
       totals included on the SF133, Report on Budget Execution. Both reports were submitted to
       EPA. EPA Superfund guidance and allocation transfer IAG award provisions prohibit
       charging agency-wide indirect cost against the Superfund IAG (see page 4 of the audit report
       for further information).
                                                                                         Attachment III
                                                                                            Page 1 of 1

                                EPA/NOAA Interagency Agreement
                             Reimbursable IAG No. DW13936229-01-2
                               Schedule of Costs Billed and Accepted
                            October 1, 1992 through September 30, 1996

                                                                          Billed To EPA
                                                                          Through 9/30/96
                                                       Approved           and Accepted
Budget Categories                                      BUDGET             PER AUDIT
                                                       (Note 1)              (Note 2)

Personnel                                            $ 1,945,000
Travel                                                   250,000
Equipment                                                 80,000
Supplies                                                  20,000
Procurement/Assistance                                 1,500,000
Total Direct Charges                                 $ 3,795,000
Indirect Costs: Rate 0.00% Base $                             -0-
Total                                                $ 3,795,000      $           2,654,273

Note 1 The reimbursable IAG was awarded September 13, 1993 in the amount of $3,445,000 and has
       since been amended twice to increase available funding to a total of $3,795,000 and to adjust
       the project period to October 1, 1992 through September 30, 1997.

Note 2 NOAA prepares lump sum billings to EPA for effort under the reimbursable IAG. The
       amount appearing in this column represents cumulative reimbursable billings to EPA under the
       IAG for the project period from October 1, 1992 through September 30, 1996 consisting of:

              Fiscal Year 1993                               $        -0-
              Fiscal Year 1994                                   981,457
              Fiscal Year 1995                                   689,242
              Fiscal Year 1996                                   983,574
              Cumulative Billing through 9/30/96             $ 2,654,273

       Billings for Fiscal Years 1993 through 1994 were addressed by prior audit report
       No. STL-8450-6-0001; $2,658 of those billings were questioned as unsupported and are still
       in the audit resolution process. Billings for Fiscal Years 1995 and 1996 are the subject of this
       current audit and include a total of $233,360 in indirect cost billings. We have accepted the
       total of Fiscal Year 1995 and 1996 billings subject to the resolution of the indirect cost issue.
                                                                                         Attachment IV
                                                                                            Page 1 of 1
                               EPA/NOAA Interagency Agreements
                                Criteria Citations for Indirect Costs
                            October 1, 1995 through September 30, 1996

The EPA Comptroller Policy Announcement No. 87-10 required certification of indirect costs by
Federal agencies performing services for EPA under IAGs. The policy was based on a Comptroller
General's decision on the Economy Act of 1932, and resulted in:

       ...EPA policy that a performing agency may only bill EPA for direct costs and for
       marginal indirect costs associated with providing the goods and services.

That EPA policy resulted in the following certification statements included in the allocation transfer
IAGs for FYs 1995 and 1996; in Attachment A, Special Provision 5):

       Indirect Cost Documentation Standards - The NOAA certifies: 1) that any indirect
       costs included in billings to EPA represent, in accordance with GAO principles,
       indirect costs that would not have been otherwise incurred by the NOAA, or 2) that
       explicit congressional authority exists for charging other than the incremental costs of
       performance. If an audit determines that any direct or indirect costs charged to EPA
       (are) unallowable, EPA will be notified immediately following the resolution of the
       audit and EPA will be credited with those costs.

The 1989 EPA Guidance For Federal Agencies contained the following instructions pertaining to
indirect costs:

       Section II.B.3, Accounting For Indirect Costs, page 15:

       ...Agency-wide indirect costs are not allowable under IAGs unless specific
       Congressional authorization for such charges exists. Superfund-related indirect costs
       are allowable and recoverable....(however) a method for allocating expenses to
       individual sites is necessary. EPA's policy is that Agencies develop rational, defensible
       allocation methods for claimed Superfund indirect costs....Developing a method of
       allocating Superfund indirect costs to individual sites is particularly critical for those
       Agencies receiving funding through allocation transfer IAGs.

       Appendix C Audits; Section D Indirect Costs, page 29:

       Charges for indirect costs billed to EPA under IAGs will be reviewed for compliance
       with the Economy Act of 1932...and EPA Comptroller's Policy Announcement 87-10,
       which state that only indirect costs specifically arising from performance of the IAG
       are billable.
